OIG Audit Report GR-30-97-002

United States Marshals Service Intergovernmental Service Agreement for Detention Facilities with Nassau County, New York
Audit Report GR-30-97-002
February 1997
Office of the Inspector General


Executive Summary


The Office  of the Inspector General (OIG), Audit Division, has completed an audit of the  proposal by the Corrections Center, Nassau County,  New York (County), for an Intergovernmental  Service Agreement (IGA) with the United States Marshals Service  (USMS). The County proposed a daily  prisoner rate of $185.98.
We reviewed supporting documentation of  the proposed costs on the Cost Sheet for Detention Services (Form USMS 243)  received from the County to provide detention space at the jail for federal  prisoners. We analyzed the daily average  inmate population and daily prisoner rate were accurate and reasonable.
Based on our review, we determined that  the proposed daily prisoner rate should be reduced from $185.98 to  $142.32. We based this on the County’s  proposed expenses used to calculate the prisoner day rate being overstates by  $7,702,722, and the estimated daily average population being increased from  1,520 inmates to 1,838. This resulted in  costs questioned totaling $1,593,590.



 




Return to OIG Home Page